      U.S. Small Business A dministration




June 24, 1996

TO:                                         Philip Lader

                                            Administrator

THROUGH: James F. Hoobler

                                            Inspector General

FROM:                                       Tim Cross

                                            Assistant Inspector General

                                            For Inspection and Evaluation

SUBJECT:                                    Inspection of SBA’s 7(a) General Business Loan Program Loss Rate

        I am pleased to submit the inspection report you requested on SBA’s 7(a) general
business loan program loss rate. It focuses on the methodology used to compute loss rates
for the 7(a) general business loan program and on the use of these rates by SBA officials.
Office of the Chief Financial Officer (OCFO) and Office of Financial Assistance (OFA)
officials concurred with the inspection’s conclusions, but OFA disagreed with a key
recommendation.

       While there are minor differences in the way the SBA and the banking industry
compute the commercial, or one-year, loss rate, we found that the methodology used by
SBA is fundamentally valid. It is consistent with the methods used by Federal banking
regulators.

       We also found, however, that SBA’s commercial loss rate is not comparable with
banking industry loss rates due to significant differences in their respective loan
objectives and portfolios. SBA and banking objectives vary substantially because the
latter are for-profit businesses charged with providing dividends to their shareholders.
SBA’s loan guarantee program is designed to promote small business formation and
growth. More importantly, SBA’s loan portfolio differs significantly from that of the
banking industry in several important aspects: SBA’s portfolio includes only small
businesses, whereas the industry rate reflects losses on loans to businesses of all sizes;
SBA’s loans are concentrated in only two industries—retail trade and services—while the
private lender loans cut across all industries; and SBA’s portfolio includes real estate
loans, which are excluded from the industry loss rates. Differing charge-off policies also
affect the timing of charge-offs and, therefore, the loss rates.

        The commercial loss rate is also misleading as an indicator of current 7(a) loan
program performance because of the rapidly expanding portfolio and the three-to-four
year lag between loan disbursals and charge-offs. SBA’s portfolio has increased by 118
percent in the past ten years, while the banking industry portfolio has grown only five
percent, and most losses on unseasoned loans are unlikely to have occurred. It should also
be noted that SBA program officials no longer used the commercial loss rate for internal
management purposes; they focus instead on cohort performance and other indicators
such as purchase, currency, and subsidy rates, which appear to be more useful measures.

        For these reasons, we recommend that SBA discontinue the use of the commercial
loss rate for the 7(a) loan program. While OFA officials acknowledge the validity of our
arguments, they believe that there are practical reasons for continuing the use do the
commercial loss rate. They assert that the rate is useful for comparisons with the
commercial lending industry because the methodologies are similar and the rate is easily
understood—whereas the subsidy rate and its derivatives are not. OFA officials believe
that the commercial loss rate can still be used if caveats are provided to indicate that
SBA’s loan portfolio, unlike that of commercial lenders, includes only small business
loans, and that there are differences in charge-off policies. In our view, however, simply
adding these caveats is not sufficient to justify SBA’s continued use of the commercial
loss rate for comparing its loan losses with those of the private industry.

       OCFO officials also agree with the inspection’s conclusions on the use of the 7(a)
commercial loss rate, and they intend to circulate a decision document to SBA’s top
management to seek concurrence. They indicate that our conclusions also apply to the
Disaster, 504 Development Company, and SBIC programs. We did not address the use of
commercial loss rate by those programs, and therefore cannot include those programs in
our recommendation. Moreover, we are not aware that SBA makes comparisons between
those programs and the private banking industry as a whole.

       Because loss and default rates are sometimes used interchangeably, we included a
discussion of default rates in this inspection. We found that loss and default rate data are
not always properly identified, and may inadvertently misrepresent 7(a) program
performance. We recommend that the OCFO and OFA ensure that information on loss
and default rates is more clearly defined and labeled.
        Each year the OCFO publishes and Annual Loss Study which includes not only
the commercial loss rate, but also "actual" (cumulative) and "ultimate" (cumulative plus
projected) loss rates for each of SBA’s loan programs. Credit reform, however, has
significantly changed the way loan information is tracked, necessitating two different
methods of presenting loan information in the Annual Loss Study—one for pre- and one
for post-credit reform data. We recommend that the OCFO determine whether revisions
can be made in the format of the Annual Loss Study to clarify loan loss data.

       We appreciate the excellent cooperation we received from both the OCFO and the
OFA. If you have any questions, we would be happy to discuss them with you at your
convenience.

Attachment




       The 7(a)
       General Business Loan Program
       Loss Rate
        June 1996
    Inspection Report
    No. 96-06-002




                    Office of Inspector General

                U.S. Small Business Administration

    TABLE OF CONTENTS



EXECUTIVE SUMMARY ii



BACKGROUND     1
OBJECTIVES, SCOPE, AND METHODOLOGY                2

LOSS RATES 3

TABLES

1.     7(a) General Business Loan and Banking Industry Loss Rates      6



APPENDICES

A      Table 1:      Ending Year Portfolio Balance and Rate of Growth, FY 1986 to

1995   10

Table 2:      7(a) Combined Commercial Loss Rates (Pre- and Post-Credit

Reform Loans), FY 1992 to 1995       10

Table 3:      7(a) General Business Loan Purchase Rates, FY 1986 to 1995     11

Table 4:      7(a) General Business Loan Combined Actual Loss Rates,

FY 1992 to 1995      11

B      Glossary      12

C      Office of the Chief Financial Officer Comments   14

D      Office of Financial Assistance Comments   18

E      Contributors to This Report        19

       ABBREVIATIONS



ABA           American Bankers Association

C&I           Commercial and Industrial Loans

Fed           Federal Reserve Bank

FDIC          Federal Deposit Insurance Corporation
GAO            General Accounting Office

OCC            Office of the Comptroller of the Currency

OCFO Office of the Chief Financial Officer

OFA            Office of Financial Assistance

OIG            Office of the Inspector General

SBA            Small Business Administration

SIC            Standard Industrial Classification

SOP            Standard Operating Procedure

       EXECUTIVE SUMMARY



This inspection was initiated at the request of the Administrator of the Small Business
Administration (SBA). It focuses on the methodology used to compute loss rates for the
7(a) general business loan program and on the use of these rates by SBA officials. Each
year the Office of the Chief Financial Officer (OCFO) publishes an Annual Loss Study
which includes the "commercial," "actual," and "ultimate" loss rates for each of SBA’s
loan programs. The commercial, or one-year, loss rate was developed to compare
program performance with that of private sector lenders. The actual loss rate is a
cumulative rate, while the ultimate loss rate is a projection of future losses. Because loss
and default rates are sometimes used interchangeably, we have included a discussion of
default rates in this inspection.

We reviewed relevant documents and conducted interviews with officials of SBA’s
OCFO and Office of Financial Assistance (OFA), the American Bankers Association
(ABA), and Federal bank regulatory agencies. To date, there has been no
comprehensive effort to verify the accuracy of the field data used to calculate 7(a)
loss rates; however, a current Office of Inspector General (OIG) audit of 7(a) loan
liquidations will verify the accuracy of charge-offs and recoveries in a random
sample of loan files.

The methodology used by SBA to calculate the commercial, or one-year, loss rate is
fundamentally valid. While there are slight differences between the SBA and the
banking industry regarding the specific elements composing the numerator and
denominator, the added components in SBA’s calculation have a minimal effect on the
loss rate.
SBA’s commercial loss rate is not comparable with banking industry loss rates
because the loan objectives and portfolios differ significantly. SBA and banking
objectives vary substantially because the latter are for-profit businesses charged with
providing dividends to their shareholders. SBA’s loan guarantee program is designed to
promote small business formation and growth. Further, SBA’s loan portfolio is
significantly different from that of the banking industry. First, SBA’s loss rate reflects a
small business loan portfolio, while banking industry loss rates include loans to all
businesses, large or small. Second, banking industry loans cut across all industries, while
SBA’s are concentrated in two Standard Industrial Classification (SIC) codes--retail trade
and services. Third, the banking industry commercial and industrial (C&I) loss rates
exclude real estate loans, while real estate loans are not separated from SBA’s loan
portfolio. Differing charge-off policies also affect the timing of charge-offs and,
therefore, the loss rates.

The usefulness of the commercial loss rate is limited by two factors: (1) a rapidly
expanding portfolio and (2) the three-to-four year lag between loan disbursals and
charge-offs. SBA’s portfolio has increased by 118 percent in the past ten years. During
the same period, the banking industry portfolio has increased only five percent. Although
the commercial loss rate shows trends in SBA’s loan portfolio over time and may indicate
improved performance for loans made five to ten years ago, it provides little information
about the behavior of loans disbursed during the last three-to-four years. Thus, SBA’s
rapid portfolio growth can create a misleading picture with regard to loss rates because
most losses on unseasoned loans are unlikely to have occurred.

SBA program officials no longer use the commercial loss rate as a management tool.
They indicated that they now focus on cohort performance and other indicators such as
purchase, currency, and subsidy rates. Since the FY 1992 implementation of credit
reform, the OCFO has tracked all loans on a yearly cohort basis. This information
provides the best measure of loan performance because cohorts at the same stages of the
maturation process can be compared.

For these reasons, we recommend that SBA discontinue the use of the commercial
loss rate for the 7(a) general business loan program.

Loss and default rate data are not always properly identified, and may
inadvertently misrepresent 7(a) loan program performance. We found that the
presentation of SBA’s loss rates in the Annual Loss Studies and in some submissions to
Congress needs additional clarification. Moreover, because there is no standard definition
for the term "default" either in SBA or in the banking industry, there can be confusion
over what SBA default rates represent--a loan payment delinquency rate or a purchase
rate. According to program officials, it is not unusual for people to confuse the loss and
default rates. We recommend that the OCFO and OFA ensure that information on
loss and default rates is more clearly defined and labeled.

While the actual and ultimate loss rates are used primarily for internal purposes,
the Annual Loss Studies in which they are published contain useful program
performance information. Credit reform, however, has significantly changed the way
loan information is tracked. This has necessitated two different methods of presenting
loan information in the Annual Loss Study--one for pre- and one for post-credit reform
data. We recommend that the OCFO determine, in consultation with appropriate
program officials, whether revisions can be made in the format of the Annual Loss
Study to clarify loan loss data.



SBA Comments

OCFO and OFA officials agreed with the inspection’s conclusions, but OFA did not
concur with the recommendation to discontinue use of the commercial loss rate for the
7(a) general business loan program. While acknowledging the validity of the report’s
arguments against its use, OFA officials believe that there are practical reasons for
continued use. They assert that the rate is (1) useful for comparisons with the commercial
lending industry because of the similar methodology used and (2) easily understood,
whereas the subsidy rate and its derivatives are not.

OFA officials believe that the commercial loss rate can still be used with the following
caveats: (1) SBA’s loan portfolio differs from that of commercial lending institutions
because the latter make other than small business loans and (2) SBA does not charge off
an account until all worthwhile recovery has been obtained, while banks quickly charge
off non-performing loans. OCFO officials also agree with the inspection’s conclusions
regarding the use by SBA of the commercial loss rate, and they intend to circulate a
decision document to SBA’s top management to seek concurrence. They indicate that our
conclusions also apply to the Disaster, 504 Development Company, and SBIC programs.
We did not address the use of the commercial loss rate by those programs, and therefore
cannot include those programs in our recommendation. Moreover, we are not aware that
SBA makes comparisons between those programs and the private banking industry as a
whole.

We strongly disagree with the continued use of the commercial loss rate. It was created
specifically to make comparisons with the private banking industry even though it lacks
comparability because of differing loan objectives, portfolio composition, and charge-off
policies. Even more important, the commercial loss rate is misleading as an indicator of
current 7(a) general business loan program performance because of the rapidly expanding
portfolio and the three-to-four year lag between loan disbursals and charge-offs. Its
limited usefulness is further demonstrated by its lack of use by program officials as a
management tool. Simply adding the caveats proposed by OFA is not sufficient, in our
opinion, to make SBA’s 7(a) commercial loss rate suitable for comparison with private
industry.

In response to our other two recommendations, the OCFO plans to condense the Annual
Loss Rate Study and present the information in a clearer and more consistent manner.
       BACKGROUND



This OIG inspection was initiated at the request of the Administrator of the SBA to
validate the methodology used to compute loss rates for the 7(a) business loan program.
SBA’s OCFO, which is responsible for calculating the loss rates for the 7(a) program,
publishes an Annual Loss Study which includes the "commercial," "actual," and
"ultimate" loss rates for each of SBA’s loan programs.

Prior to 1989, SBA calculated only the actual and ultimate loss rates for loan programs.
The actual loss rate represents total cumulative losses, while the ultimate loss rate is an
estimate of total future losses on loans presently outstanding. Neither rate has an
equivalent in the private banking sector. According to SBA officials, the actual loss rate
does not provide a fair comparison with the yearly loss rate used by the banking industry
because it is calculated on a cumulative basis. Therefore, the Comptroller’s Office
developed a commercial, or one-year, loss rate for each loan program to permit SBA
program officials to compare program performance with that of private sector lenders.
Although the commercial loss rate was also used in the past to evaluate 7(a) loan trends,
SBA program management currently uses better measures to assess loan portfolio trends,
including subsidy, purchase, and delinquency rates.

Early in the inspection, the OIG team found that there is confusion surrounding the use of
7(a) loss and default rates, which are sometimes used interchangeably. Moreover, neither
SBA nor the banking industry has a standard definition of "default." We therefore
included in this inspection a discussion of the default rate.

       OBJECTIVES, SCOPE, AND METHODOLOGY



This inspection focuses on the methodology used by SBA’s OCFO to calculate 7(a)
general business loan program loss rates and on the use of these rates by SBA program
officials. The financial data employed to calculate both loss and default rates is entered
into the loan accounting system by SBA field offices and loan centers. It was not,
however, within the scope of this review to audit those offices to determine the accuracy
of the data being input. It should be noted that the OIG’s Auditing Division is currently
conducting an audit of 7(a) liquidations which will test the accuracy of loan charge-offs
and recoveries in a statistical sample of loans.

To conduct this inspection, we interviewed OCFO and OFA officials and reviewed the
OCFO’s Annual Loss Studies; the relevant standard operating procedures (SOP); the
annual financial statement audits performed by Cotton & Company; and reports by the
OIG, the General Accounting Office (GAO) and others that address the 7(a) business
loan program. To determine the methods used in the banking industry to calculate loss
rates, we interviewed representatives of the ABA and the three major Federal bank
regulatory agencies--the Office of the Comptroller of the Currency (OCC), the Federal
Reserve (Fed), and the Federal Deposit Insurance Corporation (FDIC). We conducted our
work between October 1995 and March 1996 in accordance with the Quality Standards
for Inspections issued in March 1993 by the President’s Council on Integrity and
Efficiency.

       LOSS RATES

Discussion

Commercial Loss Rate. SBA computes and uses a "commercial loss rate" to compare
the performance of 7(a) loans with those of private sector lenders. The commercial loss
rate is a one-year measurement which is calculated by dividing net charge-offs for the
year by the average dollar value of loans outstanding.

Following the purchase of a defaulted guaranty loan from a lender, SBA charges off the
portion of the loan that is determined to be uncollectible or of such little value that its
continuance as a bankable asset is unwarranted. In determining gross charge-offs, SBA
includes (1) the amount charged off less any reversals of previously charged-off
items, (2) recoverable expenses, and (3) losses that occur on judgments.

                                             Conclusion 1: The methodology used by
                                             SBA to calculate the commercial, or one-
                                             year, loss rate is fundamentally valid.

Validity of the Methodology. We found the methodology SBA uses to calculate its
commercial loss rate to be consistent with that used by Federal regulators in reporting
banking industry loss rates. All FDIC insured banks are required to complete quarterly
reports on their financial status. From these reports, the FDIC calculates industry loss
rates by dividing net charge-offs by the average outstanding loan portfolio balance. There
are, however, slight differences between the SBA and the banking industry with regard to
the specific elements composing the numerator and denominator. For example, banks do
not add expenses to the loan balance, while SBA adds recoverable costs; SBA’s
commercial loss rate denominator includes judgments and acquired collateral that the
banking industry excludes; and SBA averages the ending outstanding loan portfolio for
the current and prior fiscal years, while the FDIC uses several different methods to
calculate the outstanding loan balance. The added components in SBA’s calculation,
however, are minor and have a minimal effect on the loss rate. Overall, SBA uses
methodology similar to that of the banking industry, and we believe it to be
fundamentally sound.



                                             Conclusion 2: SBA’s commercial loss rate
                                             is not comparable with banking industry
                                              loss rates because the loan objectives and
                                              portfolios differ significantly.

Comparability with the Banking Industry. SBA and bank objectives vary
substantially. Banks are for-profit businesses charged with providing dividends to their
shareholders. SBA is a "public-private partnership that uses tax payer dollars to leverage
private capital that would not otherwise be made available to the small business sector."
More importantly, while the method used by SBA to calculate a one-year loss rate is
comparable with that used by the banking industry, the objects of comparison, i.e., the
loan portfolios, are not. SBA uses commercial and industrial (C&I) loans in making
comparisons. Even when only C&I loans are taken into account, SBA’s loan portfolio is
significantly different from that of the banking industry. First, the industry loss rates
include loans to both large and small business. According to SBA, small business loans
make up only 39 percent of all C&I loans. Second, banking industry loans cut across all
industries, while SBA’s portfolio is concentrated in only a few areas. SBA reports that 63
percent of its outstanding loans at the end of FY 1995 had been awarded to businesses in
two SIC Code categories--retail trade and services. Third, whereas SBA includes real
estate loans in its small business loan portfolio, banks track real estate loans separately.

In addition, SBA and banks have substantially different charge-off policies. Because
banks must promptly charge-off the amount of any loan loss that becomes confirmed,
they typically charge loans off their books prior to pursuing recoveries. In contrast,
SBA’s policy is to make all reasonable efforts to collect the entire debt prior to charge-
off. This can last several years, delaying the charge-off and its effect on the loss rate.
Because of these significant differences, we believe that the 7(a) commercial loss rate
should not be used to make comparisons between SBA loan losses and those of the
private banks.



                                              Conclusion 3: The usefulness of the
                                              commercial loss rate is limited by two
                                              factors:

                                              (1) a rapidly expanding portfolio and (2)
                                              the three-to-four year lag between loan
                                              disbursals and charge-offs.

Limitations of the Commercial Loss Rate. The usefulness of the commercial loss rate
is also constrained by two factors: (1) a rapidly expanding portfolio and (2) the three-to-
four year lag between loan disbursals and charge-offs. SBA’s portfolio has increased by
118 percent in the past ten years, while the banking industry portfolio has grown only
five percent. (See Table 1 in Appendix A).

During this period, SBA’s average outstanding loan balance (the loss rate denominator)
increased significantly, while loan losses (the numerator) gradually declined. As a result,
SBA’s commercial loss rate for guaranty loans has fallen from 3.87 percent in 1986 to
.81 percent in 1995. (See Table 1.) Although the rate provides a useful view of SBA’s
loan portfolio over time and may indicate improved program performance for loans made
five to ten years ago, it provides little information about the performance of loans
disbursed during the last three to four years, i.e., those loans that may not be sufficiently
"seasoned" to reflect losses. Thus, SBA’s rapid portfolio growth can create a misleading
picture with regard to loss rates because most losses on unseasoned loans are unlikely to
have occurred.

The banking industry’s loss rates on commercial and industrial loans have steadily
declined from 1.54 percent to .25 percent between 1986 and 1995 and are slightly lower
than SBA’s commercial loss rates. (See Table 1.) Regulatory officials attribute the
decline primarily to (1) more conservative underwriting by banks, (2) improvements in
the national economy, (3) greater diversification in lending portfolios, in terms of loan
type and geography, and (4) more sophisticated portfolio management and loan review
systems.




             Table 1: 7(a) General Business Loan and Banking Industry

                                        Loss Rates


                    Year               SBA General          Banking Industry
                                      Business Loans
                    1986                  3.87%                   1.54%
                    1987                  4.05%                   1.19%
                    1988                  3.98%                   1.09%
                    1989                  3.35%                   1.09%
                    1990                  2.81%                   1.36%
                    1991                  2.17%                   1.80%
                    1992                  1.97%                   1.33%
                    1993                  1.60%                   0.74%
                    1994                  1.18%                   0.27%
                    1995                 0.81%               0.25%
           Note: SBA loss rates include guaranty loans only. The SBA
           loss rate for 1995 uses the same method of calculation used in
           previous Loss Studies, i.e. only pre-credit reform net charge-
           offs are used in the numerator.
           Source: SBA, Annual Loss Studies and Loan Profiles - FY
           1992; and FDIC Department of Statistics and Research. The
           Annual Loss Study, FY 1995 was still in draft when this table
           was printed.



                                           Conclusion 4: SBA program officials no
                                           longer use the commercial loss rate as a
                                           management tool.

Use as a Management Tool. With the implementation of credit reform in FY 1992,
the OCFO began tracking all loans on a yearly cohort basis. Using cohorts to
compare loans that are in the same stage of the maturation process provides the best
means of monitoring loan performance. Program management indicates that it does
not currently use the commercial loss rate as a management tool, either to measure
program performance or to identify trends. Because of credit reform, OFA now
focuses on cohort performance and other indicators such as purchase, currency, and
subsidy rates. Moreover, the subsidy rate calculation takes into account all program
costs with the exception of agency administrative costs.

In summary, while the methodology used in computing the commercial loss rate is
valid, the public use of the commercial loss rate is no longer advisable because it (1)
is not comparable to banking industry loss rates because of different loan objectives
and portfolios, (2) is of limited usefulness due to SBA’s rapidly expanding loan
portfolio and the three-to-four year lag between loan disbursals and charge-offs,
and (3) is no longer used by program officials as a management tool.

                                           Recommendation 1: We recommend that
                                           SBA discontinue the use of the
                                           commercial loss rate for the 7(a) general
                                           business loan program.



                                           Conclusion 5: Loss and default rate data
                                           are not always properly identified, and may
                                           inadvertently misrepresent 7(a) loan
                                           program performance.
Loss Data. In addition, we found that the presentation of SBA’s loss rates in the
Annual Loss Studies and in some submissions to Congress needed additional
clarification. The loss rates presented do not always clearly identify the figures
provided. For example, it is not always clear whether only pre-credit reform (loans
disbursed before 1992) or both pre- and post-credit reform data are being used, or
when rates include only guaranty loans or both direct and guaranty loans. Although
it is not indicated in the Annual Loss Studies, the OCFO has included only pre-
credit reform loans in charge-off and recovery figures in calculating the commercial
loss rate but has used both pre- and post-credit reform loan information in the
average outstanding portfolio figures. Data used in the loss rate calculations should
be consistent and clearly identified. If post-credit reform charge-offs and recoveries
are included in the commercial loss rate calculation, the rates will increase slightly
from 1.18 percent to 1.28 percent in FY 1994 and from .81 percent to 1.02 percent in
FY 1995. (See Table 2 in Appendix A.) As the FY 1992 loan cohort matures,
however, the effect of omitting post-credit reform loans will become stronger.

Default Rates. The terms "loss rate" and "default rate" are sometimes used
interchangeably in the media and in Congressional hearings. According to program
officials, the loss and default rates are often confused due to the lack of a standard
definition of the term default--within either SBA or the private banking industry. In the
banking industry a loan is in technical default if the borrower is in violation of some
specific provision of the loan agreement--even though the borrower may be current in
his/her loan payments. Usually, however, banks do not place a loan in liquidation based
on a technical default. According to Federal regulators, banks do not report a default rate,
so no aggregate data on industry defaults is available. Banks do, however, track and
report delinquent loans, and the FDIC compiles data on past due loans and computes
delinquent loan ratios.

SBA’s Loan Servicing SOP defines default as a delinquency in a payment on a loan.
OFA officials suggest, however, it is not entirely clear whether a default occurs when a
payment on the loan is 30 days past due (and therefore no longer current), when the
payment is 60 days past due, or when the loan is in liquidation. The OCFO treats SBA’s
purchase rate (also called the "repurchase" rate) as the default rate. Under SBA’s
guaranty agreement with lenders, a lender can request that SBA purchase the guaranteed
portion of the outstanding loan if an installment remains unpaid for more than 60 days.
The purchase rate is calculated by dividing total purchases for one year by total
disbursements for the year. Because the outstanding portfolio (the denominator) has
grown significantly while purchases (the numerator) have remained relatively constant,
the combined pre- and post-credit reform purchase rates can be misleading. (See Table 3
in Appendix A.) Nevertheless, because purchases are the earliest indication of potential
loan losses, there is a benefit to using purchase rates to monitor loan performance.

Even when the purchase rate is used as the default rate, there may still be some
confusion. For example, a table labeled "Default Rates," which was submitted by SBA to
a March 1995 hearing of the House Committee on Small Business, did not represent
either delinquency rates or actual purchase rates, but forecasted purchase rates for annual
cohorts without labeling them as such. In short, SBA needs to make a stronger effort to
clarify the meaning of the default rates it cites and to apply them in a consistent manner.

                                              Recommendation 2: We recommend that
                                              the OCFO and OFA ensure that
                                              information on loss and default rates is
                                              more clearly defined and labeled.



                                              Conclusion 7: While the actual and
                                              ultimate loss rates are used primarily for
                                              internal purposes, the Annual Loss Studies
                                              in which they are published contain useful
                                              program performance information.

Actual and Ultimate Loss Rates. In addition to the commercial loss rate, the OCFO also
publishes actual and ultimate loss rates in the Annual Loss Studies. (See Table 4 in
Appendix A for historical data.) There are no aggregate banking industry rates
comparable to SBA’s actual and ultimate loss rates. Moreover, these loss rates are used
for internal SBA purposes.

SBA has used the actual loss rate to track losses from the inception of the 7(a) loan
program. It is composed of cumulative net charge-offs divided by cumulative
disbursements. Because the actual loss rate is not limited to one year of data, it is
significantly higher than SBA’s commercial loss rate and banking industry loss rates.

The ultimate loss rate is an estimate of total future losses on loans presently outstanding.
The OCFO computes it by adding an estimate of losses on loans that have not yet been
purchased (projected losses) and an estimate of losses on loans that have already been
purchased (allowance for losses) to the cumulative net losses. The projected losses and
allowance for losses figures are calculated using historical loan data and projections
about future loan behavior. These estimates provide the basis for establishing a "reserve"
for future losses on the existing pre-1992 portfolio.

It is assumed that most of the losses on loans in the pre-credit reform cohort will occur
within the next ten years, and when all charge-offs and recoveries have been made, the
actual and ultimate loss rates will converge. For loans approved after FY 1991, the cost
of Federal credit is estimated based on the subsidy rate when the loan is disbursed, as
opposed to a forecast of future losses. Thus the use of the subsidy rate to estimate loan
costs will eliminate the need for an ultimate loss rate calculation.

Annual Loss Study. Although the actual and ultimate loss rates are used primarily
for internal purposes, the Annual Loss Studies contain useful information on
recoveries, purchases, charge-offs, as well as other data that relate to the
performance of all SBA loan and investment programs. Credit reform has
significantly changed the way loan information is tracked. This has necessitated two
different methods of presenting loan information in the Annual Loss Study--one for
pre- and one for post-credit reform data--which has complicated the format of the
study. It would be useful for the OCFO to review the organization and content of
the study to determine whether revisions are needed.

                                          Recommendation 3: We recommend that
                                          the OCFO determine, in consultation with
                                          appropriate program officials, whether
                                          revisions can be made in the format of the
                                          Annual Loss Study to clarify loan loss
                                          data.

APPENDIX A




            Table A.1. Ending Year Portfolio Balance and Rate of Growth

                                (millions of dollars)




     Year        SBA 7(a)          Change        Banking Industry        Change
               Guaranty Loans                      C& I Loans a
   1986            9,267

                                                        600,858
                    9,218           -0.53%              589,675           -1.86%

   1987
   1988              9,198          -0.22%              600,400           1.82%
   1989              9,600           4.37%              618,625           3.04%
   1990             10,295           7.24%              615,311          -0.54%
   1991             11,491         11.62%               558,962          -9.16%
   1992             13,067         13.72%               536,340          -4.05%
   1993             15,082         15.42%               538,952           0.49%
1994           17,327       14.89%          589,120         9.31%
1995           20,279       17.04%          630,095         6.96%
a
  C&I = Commercial and Industrial Loans.
Source: U.S. SBA Management Information Summary, MARS 393, FY
1986-1995.




           Table A.2. 7(a) Combined Commercial Loss Rates

                 (Pre- and Post-Credit Reform Loans)




            Year         Loss Rates on Pre-       Combined Loss
                           Credit Reform               Rates
                                Loans
             1992               1.97%                  1.97%
             1993               1.60%                  1.62%
             1994               1.18%                  1.28%
             1995               0.81%                  1.02%
     Source: U.S. SBA, OCFO, Annual Loss Studies. The Annual
     Loss Study, FY 1995 was still in draft when this table was
     printed.
   Table A.3. 7(a) General Business Loans Purchase Rates




    Fiscal Year      Pre-Credit Reform      Pre- and Post-
                                            Credit Reforma
        1986                20.05%
        1987                20.15%
        1988                20.12%
        1989                20.42%
        1990                19.83%
        1991                20.71%
        1992                20.60%                16.96%
        1993                20.60%                16.27%
        1994                20.60%                15.23%
        1995                20.60%                14.73%
a
  Purchases under credit reform begin in FY 1992 and have
been calculated by the inspection team.
Note: Purchase rates shown in the Loss Studies do not include
post-credit reform data in either the numerator or
denominator.
Source: U.S. SBA, OCFO, Annual Loss Studies. The Annual
Loss Study, FY 1995 was still in draft when this table was
printed.




         Table A.4. Actual and Ultimate Loss Rates
                  Year            Actual Loss Rate Ultimate Loss Rate
                   1986                 6.96%                12.27%
                   1987                 7.47%                12.39%
                   1988                 7.98%                12.52%
                   1989                 8.25%                12.71%
                   1990                 8.38%                12.27%
                   1991                 8.32%                12.80%
                   1992                 8.65%                12.68%
                   1993                 9.14%                12.46%
                   1994                 9.61%                12.22%
                   1995                 9.61%                11.85%
           Note: Loss Rates include 7(a) guaranty loans only.
           Source: SBA, OCFO, Annual Loss Studies. The Annual Loss
           Study, FY 1995 was still in draft when this table was printed.




APPENDIX B

                                      GLOSSARY



Actual Loss Rate

The ratio of cumulative net losses to total cumulative disbursements.

Allowance For Losses

An estimate of future losses on loans that have already been purchased.

Charge-Offs

Synonymous with the term write-off. It is the process by which SBA recognizes a loss on
its records, removes uncollectible accounts from its active receivables, and authorizes
cessation of loan office collection activity.
Cohort

A group composed of loans approved in the same fiscal year. Cohorts may be further
classified according to loan type and loan program. Loans approved prior to October 1,
1991, are tracked as a single cohort.

Commercial Loss Rate

The ratio of net charge-offs to the average outstanding loan balance. It is calculated
annually and is designed to produce a loss rate that is comparable to those published by
the private sector.

Disbursements

Cumulative total of the principal amount loaned under a particular program. Depending
on the loan type, e.g., direct or guaranteed, the disbursement of monies is made by SBA
or the participating lender.

Federal Credit Reform Act

Provides a measure of Federal agencies’ costs for financial assistance programs. All
Federal direct and guaranteed credit is required to be treated consistently across the
Federal Government. This process is based on the calculation of a subsidy rate for each
distinct loan program.

In Liquidation

A classification used when it is necessary to enforce collection or when the Agency’s
interest in collateral may be in jeopardy as a result of any type of insolvency proceedings.

Judgment

A judicial determination in court that a borrower owes SBA money.

Net Charge-Offs

Gross charge-offs less recoveries.



Pre-Credit Reform Loans

Loans approved prior to October 1, 1991.

Projected Loss
An estimate of future losses on loans that have not yet been purchased.

Purchase Rate

The ratio of total purchases to total disbursements.

Recoverable Expenses

Expenses incurred by SBA on behalf of the borrower that are charged to the borrower’s
loan account, increasing the amount owed to SBA.

Subsidy Rate

An estimate of the cost of Federal credit approved since October 1, 1991. It is based on a
present value analysis of expected cash flows for each credit program for each approval
year (cohort). By using the subsidy rate, the cost of Federal credit is recognized at the
time the decision is made to approve program levels.

Ultimate Loss Rate

An estimate of total future losses on loans presently outstanding. It is computed by
adding the projected losses and the allowance for losses to cumulative net losses.

APPENDIX C




DATE:           June 18, 1996

TO:             Tim Cross

                Assistant Inspector General

                for Inspection and Evaluation

FROM:           Director, Financial Administration Staff

SUBJECT:        Comments on Final Draft Inspection Report

Enclosed are the written comments of the Office of the Chief Financial Officer on your
final draft report entitled "The 7(a) General Business Loan Program Loss Rate." You may
contact me on 205-6103 if you have any questions on these comments.
    John S. Kushman




Enclosure:



cc: Gregory A. Walter

Recommendation 1: We recommend that SBA discontinue the use of the
commercial loss rate for the 7(a) general business program.

Management Response:

The review by the Office of Inspector General (OIG) concluded that SBA’s commercial
loss rate for its 7(a) general business program is not comparable with banking industry
loss rates. The OIG asserts this because the composition of SBA’s portfolio is
fundamentally different in loan size, SIC of borrowers, collateral, and operating policies,
including the timing of loan charge-off, from bank loans. In addition, the OIG concluded
that the usefulness of SBA’s commercial loss rate is limited because of SBA’s rapidly
expanding portfolio and a three to four year lag between loan disbursal and charge-off.
The OIG asserts that the large increase in SBA’s outstanding loan guaranties since 1992
and the natural lack of early year losses serve to dramatically understate the commercial
loss rate compared to the banking industry. Finally, the OIG asserts that SBA program
officials use the Federal Credit Reform subsidy rate, the actual performance of "loan
cohorts", portfolio currency rates and purchase rates in their management of the 7(a)
guaranty program. As a result, the commercial loss rate is not useful as a management
tool.

The Office of the CFO (OCFO) acknowledges the validity of the arguments made by the
OIG. The commercial loss rate was included in the loss study a number of years ago,
prior to Federal Credit Reform, in response to Agency management. The commercial loss
rate was seen as an indicator of program cost and also as a comparison to loans made by
the banking industry. It may well be that the usefulness of this measure has been eclipsed
by Federal Credit reform measures.
Prior to discontinuing existing procedures to compute the commercial loss rate, the
OCFO will circulate a decision document to SBA’s top management officials to address
this issue. The arguments made by the OIG for the 7(a) guaranty program also apply to
Disaster, 504 Development Company, and SBIC programs. As a result the decision
document will address the commercial loss rate as it applies to all of the SBA’s lending
programs. Assuming management’s concurrence, the OCFO will discontinue its process
to maintain information to calculate the commercial loss rate and will not provide
information on this rate in the future.




Recommendation 2: We recommend that the OCFO and OFA ensure that
information on loss and default rates is more clearly defined and labeled.

Management Response:

The OIG in its review found that loss and default data are not always properly identified,
and may inadvertently misrepresent 7(a) loan program performance. The loss data for
loans made prior to the advent of Federal Credit Reform on October 1, 1991 is presented
differently than for loans made under Federal Credit Reform. In addition, the OIG found
that the use of the terms "loss rate", "default rate" and "purchase rate" by federal officials
and the media is inconsistent and confusing. Default rate is often used instead of the loss
rate or the purchase rate. The overall result of this confusion is at times to misrepresent
loss or purchase rate information.

The OCFO understands and agrees with the OIG conclusion that the technical terms
involved with loans losses are sometimes misused. The cause of this confusion is
probably the somewhat complex nature of SBA’s loan programs. Federal Credit Reform
has added to this technical complexity. The OCFO loss study is inherently by nature a
complex document that can be confusing to readers unfamiliar with the technical terms
used in lending programs.

Nevertheless, the OCFO agrees that its loss study could be improved to better define and
consistently label information included in the study. The FY 1996 study will be
redesigned to condense and clarify the information provided. Information provided will
be clearly identified and labeled for loss rates and purchase rates.




Recommendation 3: We recommend that the OCFO determine in consultation with
appropriate program officials, whether revisions can be made in the format of the
Annual Loss Study to clarify loan loss data.
Management Response:

The OIG noted in its study that, while the "actual" and "ultimate" loss rates are primarily
used by the OCFO for internal purposes, the Annual Loss Study has program
performance information useful for others inside and outside the Agency. Further, the
OIG noted that the inclusion of Federal Credit Reform results using a different treatment
in the loss study than for pre-Credit Reform loans has complicated the format of the
study. For this reason, the OIG has recommended that the OCFO review the format of the
study to determine whether revisions may be needed form the point of view of users
outside the OCFO.

The Annual Loss Study should meet the needs of the Agency management and provide
information internally within OCFO. The OCFO will review the format and content of its
Annual Loss Study for the FY 1996 study. Initial thoughts are to condense the study to
provide the actual loss rates results, without presenting the extensive amount of
information that is currently presented. Additional information will be maintained in
OCFO records available to interested parties upon their request. The OCFO will review
the display of pre and post Federal Credit Reform information. Where feasible, the
OCFO will use a constant format. Primary users of the Annual Loss Study outside the
OCFO will be consulted as part of the redesign effort.
  Final Draft Inspection Report, Lost Rates




APPENDIX E

                                              CONTRIBUTORS TO THIS REPORT
Mary Jeanne Reid Martz, Team Leader

Shayne L. Johnson, Inspector

Christopher J. Chaplain, Inspector
